     OPEN WORLD LEADERSHIP CENTER


FINANCIAL STATEMENTS FOR FISCAL YEARS 2010 AND 2009




                   Washington, DC
                    February 2011
                   UNITED STATES GOVERNMENT                                     LIBRARY OF CONGRESS
                   Memorandum                                                    Office of the Inspector General


TO:                Ambassador John O’Keefe                                                              May 11, 2011 
                   Executive Director 
                   Open World Leadership Center 
                    
FROM:              Karl W. Schornagel          
                   Inspector General 
 
SUBJECT:           Results of the Open World Leadership Center 
                   FY 2010 Financial Statement Audit 
 
The  attached  reports  present  the  results  of  the  annual  audits  of  the  Open  World  Leadership 
Center’s (Open World) financial statements for fiscal years (FY) 2010 and 2009. 
 
We  contracted  with  the  independent  certified  public  accounting  firm  of  Kearney  &  Company 
(Kearney)  for  the  audits.    The  contract  required  that  the  audits  be  performed  in  accordance  with 
U.S.  generally  accepted  government  auditing  standards;  the  Office  of  Management  and  Budget 
Bulletin 07‐04, Audit  Requirements for Federal Financial Statements; and the GAO/PCIE  Financial 
Audit Manual. 
  
In its audit of Open World, Kearney found: 
 
      The  financial  statements  were  fairly  presented,  in  all  material  respects, in  conformity  with 
         U.S. generally accepted accounting principles, 
 
      There  were  no  material  weaknesses in  internal  control1  over  financial  reporting  (including 
         safeguarding assets), and 
 
      There were no instances of noncompliance with laws and regulations it tested. 
 
      



1
  A material weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the Center’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or combination of deficiencies, in internal control
that is less severe than a material weakness, yet important enough to merit attention by those charged with governance.
A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct misstatements
on a timely basis.
In  connection  with  the  contract,  we  reviewed  Kearney’s  report  and  related  documentation  and 
inquired of its representatives.  Our review, as differentiated from an audit in accordance with U.S. 
generally accepted government auditing standards, was not intended to enable us to express, and 
we  do  not  express,  an  opinion  on  Open  World’s  financial  statements  or  conclusions  about  the 
effectiveness of internal controls or conclusions on compliance with laws and regulations.  Kearney 
is responsible for the attached auditor’s report dated April 5, 2011 and the conclusions expressed in 
the  report.2    However,  our  review  disclosed  no  instances  where  Kearney  did  not  comply,  in  all 
material respects, with U.S. generally accepted government auditing standards. 
 
 
Attachment 
 




2
  In accordance with generally accepted auditing standards, Kearney’s report is dated as of the last day of their audit
fieldwork. Kearney’s final report was delivered to the Office of the Inspector General on April 28, 2011.
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                           INDEPENDENT AUDITOR’S REPORT


Executive Director
Open World Leadership Center


We have audited the accompanying consolidated balance sheets of the Open World Leadership
Center (the Center) as of September 30, 2010 and 2009, and the related consolidated statements
of net cost, statements of changes in net position, and combined statements of budgetary
resources for the years then ended. These financial statements are the responsibility of the
Center’s management. Our responsibility is to express an opinion on these financial statements
based on our audits.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the Center’s financial
statements for the years ended September 30, 2010 and 2009 are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of
America (GAAP).

Our consideration of internal control over financial reporting (including the safeguarding of
assets) disclosed no significant deficiencies or material weaknesses.

The results of our tests of compliance with certain provisions of laws and regulations disclosed
no instances of noncompliance that are required to be reported herein under Government
Auditing Standards issued by the Comptroller General of the United States.

The following sections discuss our opinion on the Center’s financial statements, our
consideration of the Center’s internal control over financial reporting, our tests of the Center’s
compliance with certain provisions of applicable laws and regulations, and Center management’s
and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the Center as of September
30, 2010 and 2009, and the related consolidated statements of net cost and changes in net
position, and combined statements of budgetary resources for the years then ended. These
financial statements are the responsibility of the Center’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing



                                                1
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Center as of September 30, 2010 and 2009, and its net cost of
operations, changes in net position, and budgetary resources, including accompanying notes, for
the years then ended, in conformity with GAAP.

The Center’s Management’s Discussion and Analysis, other Required Supplementary
Information, and other accompanying information contain a wide range of information, some of
which is not directly related to the financial statements. The information contained in the
Management’s Discussion and Analysis is not a required part of the Center’s financial
statements, but is considered supplementary information required by OMB Circular No. A-136,
Financial Reporting Requirements. We do not express an opinion on this information.
However, we compared this information for consistency with the financial statements and
discussed the methods of measurement and presentation with the Center. On the basis of this
limited work, we found no material inconsistencies with the financial statements, GAAP, or
OMB Bulletin No. 07-04, as amended.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we considered the Center’s internal control over financial
reporting and compliance by obtaining an understanding of the design effectiveness of the
Center’s internal control, determining whether these controls had been placed in operation,
assessing control risk, and performing tests of the Center’s controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements and not
to provide an opinion on the internal controls. Accordingly, we do not express an opinion on the
effectiveness of the Center’s internal control over financial reporting and compliance.

We limited our control testing to those controls necessary to achieve the following OMB Bulletin
No. 07-04 control objectives that provide reasonable, but not absolute, assurance that:

   1. Transactions are properly recorded, processed, and summarized to permit the preparation
      of the financial statements in accordance with GAAP, and assets are safeguarded against
      loss from unauthorized acquisition, use, or disposition
   2. Transactions are executed in compliance with laws governing the use of budget authority;
      Government-wide policies and laws identified in Appendix E of OMB Bulletin No. 07-
      04, as amended; and other laws and regulations that could have a direct and material
      effect on financial statements. We did not test all internal controls relevant to the


                                                  2
       operating objectives as broadly defined by the Federal Financial Management
       Improvement Act, such as those controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or combination of deficiencies in internal control such that there is a reasonable
possibility that a material misstatement of the Center’s financial statements will not be prevented
or detected and corrected on a timely basis. A significant deficiency is a deficiency or
combination of deficiencies in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraphs, and was not designed to identify all deficiencies in internal
control that might be deficiencies, significant deficiencies, or material weaknesses. We did not
note any deficiencies in internal control that we consider to be material weaknesses or significant
deficiencies, as defined above.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the Center’s financial statements are
free of material misstatement, we performed tests of the Center’s compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts and certain other laws and regulations
specified in OMB Bulletin No. 07-04, as amended. We limited our tests of compliance to these
provisions; we did not test compliance with all laws and regulations applicable to the Center.
Providing an opinion on compliance with certain provisions was not an objective of our audit,
and accordingly, we do not express such an opinion.

The results of our testing disclosed no instances of noncompliance as described in the preceding
paragraph, and disclosed no instances of noncompliance that would be reportable under
standards applicable to financial audits contained in Government Auditing Standards and OMB
Bulletin No. 07-04, as amended.

                                 *       *       *      *       *




                                                 3
This report is intended solely for the information and use of the Center’s Board of Directors, the
Center’s Audit Committee, the Center’s management, and Congress, and is not intended to be,
and should not be, used by anyone other than these specified parties.




Alexandria, Virginia
April 5, 2011




                                                 4
                      OPEN WORLD LEADERSHIP CENTER

    FINANCIAL STATEMENTS FOR FISCAL YEARS ENDED 2010 AND 2009

                               TABLE OF CONTENTS

                                                                PAGE
MANAGEMENT’S DISCUSSION AND ANALYSIS

    Mission and Overview                                         1
    History                                                      1
    Overview of Financial Statements                             2
    Limitations of the Financial Statements                      3

FINANCIAL STATEMENTS AND NOTES

    Consolidated Balance Sheets                                  5
    Consolidated Statements of Net Costs                         6
    Consolidated Statement of Changes in Net Position            7
    Combined Statement of Budgetary Resources                    8
    Notes to the Financial Statements                            9

REPORT OF INDEPENDENT AUDITORS

    Independent Auditor’s Report
MANAGEMENT’S DISCUSSION AND ANALYSIS
                      OPEN WORLD LEADERSHIP CENTER
                             Financial Statements
                      For the Fiscal Years Ended September 30, 2010 and 2009

                     MANAGEMENT’S DISCUSSION AND ANALYSIS


                                 MISSION AND OVERVIEW

The mission of the Center is to enhance understanding and capabilities for cooperation between the
United States and the countries of Eurasia and the Baltic States by developing a network of leaders
in the region who have gained significant, firsthand exposure to America’s democratic, accountable
government and free-market system. Since its founding by Congress in 1999, the Open World
Program, which is administered by the Center, has enabled over 12,000 current and future leaders
from Russia, Ukraine, Azerbaijan, Belarus, Georgia, Kyrgyzstan, Lithuania, Moldova, Tajikistan and
Uzbekistan to experience American democracy and civil society, work with their American
counterparts, live in American families and communities, and gain new ideas and inspiration for
implementing change back home. The Center is today the largest U.S.-Russia exchange program
and a proven model for exchanges for leaders from other Eurasian countries.

The Center is an independent entity in the Legislative Branch governed by a board of trustees. Board
members consist of members of Congress and private citizens. The Congressional leadership
appoints congressional members while the Librarian of Congress appoints citizen board members.
The Librarian of Congress is currently the Chairman of the Board.

The Center receives appropriated funds and is authorized to receive private donations. All funds
credited to the Center are deposited in a United States Treasury trust fund, the Open World
Leadership Center Trust Fund.


                                            HISTORY

Congress established Open World in May 1999 as a Library of Congress–run pilot exchange for
emerging Russian leaders. In late 2000, Congress created (Public Law 106-554) the Center as a
separate legislative branch entity to manage the program, which had already hosted 3,500 Russians
in 48 states. In 2003, Congress made the other New Independent States and the Baltic Republics
eligible for Open World and expanded the Russia program to include cultural leaders. One year
later, Congress extended Open World eligibility to any countries designated by the Center’s board.
Today, the original Russia program, the cultural leaders program for Russia and exchanges with
other countries in the region are collectively called the Open World Program.

The Center conducts its programs with the help of many respected government agencies and non-
governmental organizations (NGOs) in the United States and participating countries. A large pool
of prominent U.S. and foreign government bodies and international NGOs nominate most
candidates. Finalists are then selected by committees composed mainly of U.S. Embassy staff. The
                                               -1-
 U.S. visits are carried out by some 20 organizations with exchange-program expertise that the Center
 competitively selects and awards grants to each year. These organizations either host groups
 themselves or recruit local affiliates, civic organizations, educational institutions, and government
 bodies to do so. In addition to arranging the professional agendas, these local host organizations
 provide meals, lodging, and cultural and social activities.

 The Center awards contracts for the international and domestic travel and other logistical and
 administrative arrangements for the program and other expert services. The Open World Alumni
 Program is supported by private funding and administered through a contract.

 The Center relies on the Library of Congress (the Library) through an interagency agreement to
 provide accounting services and support, financial reporting and financial statements, personnel and
 human resources services, contracting services, legal services and office space.


                         OVERVIEW OF FINANCIAL STATEMENTS


                                             Balance Sheet

 The purpose of the Balance Sheet is to provide financial statement users with information about the
 Center’s assets, liabilities, and net position as of fiscal years 2010 and 2009. The Center’s net
 position consists of the funds authorized by Congress for operations of the Center since inception,
 private donations, and the net results of operations through fiscal years 2010 and 2009.

                                                       Liabilities and
Assets                       (in millions)             Net Position                 (in millions)
                            2010              2009                                 2010           2009
                                                     Intragovernmental
Intragovernmental             $8.1              $8.7 Liabilities                     $0.3            $0.5
Prepayments                    0.1               0.5 Other Liabilities                1.9             1.2
Other                          0.1                   Net Position                     6.1             7.5
Total Assets                  $8.3              $9.2 Total Liabilities               $8.3            $9.2
                                                     and Net Position


 The Center’s assets total $8.3 million and $9.2 million for fiscal years 2010 and 2009, respectively
 with Investments with the Department of the Treasury (Treasury) as the major item. The Center’s
 liabilities total $2.2 million and $1.7 million consisting of accounts payable, accrued payroll
 liabilities, and advances.




                                                 -2-
                                      Statement of Net Costs

The purpose of the Statement of Net Costs is to provide financial statement users with information
about program costs. Program costs for fiscal year 2010 were $14.9 million and $14.6 million for
fiscal years 2010 and 2009, respectively.

                              Statement of Changes in Net Position

The purpose of the Statement of Changes in Net Position is to provide financial statement users with
information about the Center’s financing sources and the components of the changes in net position.
The Center’s net position decreased by $1.3 million during fiscal year 2010 due to the Center’s net
costs of operations ($14.9 million) exceeding its financing sources ($13.6 million) for the fiscal year.

                               Statement of Budgetary Resources

The Statement of Budgetary Resources and the related disclosures provide information about how
budgetary resources were made available as well as their status at the end of the period. The
Budgetary Resources section of the statement presents the total budgetary resources available to the
Center and information about the status of budgetary resources at the end of the period. Finally, the
Outlays section presents the total outlays of the Center and relates obligations incurred to total
outlays.

The Center’s budgetary resources were $26.9 million and $32.0 million for fiscal years 2010 and
2009, respectively. Budgetary resources consisted of $0.4 million and $1.0 million of prior year
unobligated balances, $1.2 million and $1.6 million of recoveries of prior year unpaid obligations,
and $25.3 million and $29.4 million of current year budget authority. Outlays of $14.3 million for
both fiscal years 2010 and 2009 consisted of $12.0 million and $13.9 million from appropriated
sources and $2.3 million and $0.4 million from non-appropriated sources for fiscal years 2010 and
2009, respectively. Please refer to Note 11, especially for an explanation of the budgetary resource
amounts.


                    LIMITATIONS OF THE FINANCIAL STATEMENTS

The Center’s financial statements are the culmination of a systematic accounting process. The
statements have been prepared to report the financial position and results of operations of the Center,
pursuant to the hierarchy of accounting principles and standards set forth in Note 1 to the financial
statements. While the statements have been prepared from the books and records maintained by the
Library of Congress, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements
should be read with the realization that they are a component of the U.S. Government, a sovereign
entity. One implication of this is that obligations and subsequent liabilities cannot be incurred
without legislation that provides authority to do so.



                                                 -3-
FINANCIAL STATEMENTS AND NOTES




              -4-
                        OPEN WORLD LEADERSHIP CENTER
                             Consolidated Balance Sheets
                               As of September 30, 2010 and 2009
                                                                          FY 2010        FY 2009
ASSETS
Entity Assets:
         Intragovernmental Assets
           Fund Balance with Treasury (Note 2)                        $ 1,165,315 $ 1,034,951
           Investments (Note 3)                                         6,938,957   7,727,380
           Accounts Receivable                                                166           0
         Total Intragovernmental                                        8,104,438   8,762,331

        Pledges Receivable – Donations (Note 4)                            63,162           0
        Property and Equipment                                              1,133       1,586
        Prepayments (Note 5)                                              142,700     471,549
Total Assets                                                          $ 8,311,433 $ 9,235,466

LIABILITIES
       Intragovernmental Liabilities
        Accounts Payable and Accrued Funded Payroll Benefits          $      104,945 $    160,080
         Advances from Others                                                190,890      406,729
       Total Intragovernmental                                               295,835      566,809


         Accounts Payable and Accrued Funded Payroll Benefits           1,810,794   1,136,589
         Unfunded Annual and Compensatory Leave                            62,279      64,978
Total Liabilities                                                     $ 2,168,908 $ 1,768,376

NET POSITION
  Cumulative Results of Operations - Earmarked                            6,142,525      7,467,090
Total Net Position                                                        6,142,525      7,467,090

Total Liabilities and Net Position                                    $ 8,311,433 $ 9,235,466


The accompanying notes are an integral part of these financial statements.
                                              -5-
                              OPEN WORLD LEADERSHIP CENTER
                               Consolidated Statements of Net Costs
                           For the Years Ended September 30, 2010 and 2009
                                                                    FY 2010            FY 2009

Net Costs by Program Area:



                                                                $       14,928,614 $    14,643,577
  Program Costs
  Less Earned Revenue                                                            0               0
    Net Costs of Operations                                             14,928,614      14,643,577


The accompanying notes are an integral part of these financial statements.




                                              -6-
                                OPEN WORLD LEADERSHIP CENTER
                             Consolidated Statement of Changes in Net Position
                                  For the Years Ended September 30, 2010 and 2009
                                                            FY 2010                       FY 2009
                                                   Cumulative     Unexpended Cumulative Unexpended
                                                    Results of   Appropriation    Results of Appropriation
                                                    Operations                    Operations




Cumulative Results of Operations
Beginning Balances                                $        7,467,090                   0$   6,939,700              0

Budgetary Financing Sources
 Appropriations Received                                                      12,000,000             0     13,900,000
 Other Adjustments                                                                                   0              0
 Appropriations Used                                       12,000,000        (12,000,000)   13,900,000   (13,900,000)
 Non-Exchange Revenue                                         314,386                          328,876              0
 Donations Cash or Securities                                 625,912                          412,724              0
 Other financing sources                                      586,839                  0      472,237
Other Financing Sources
 Imputed Financing from costs absorbed
 by others (Note 8)                                             76,912                          57,130             0
Total Financing Sources                                    13,604,049                  0    15,170,967             0
Net Costs of Operations                                   (14,928,614)                    (14,643,577)             0
Net Change                                                  (1,324,565)                        527,390
Net Position, Ending                   $                      6,142,525                0$    7,467,090             0



The accompanying notes are an integral part of these financial statements.
Note: Open World Leadership Center funds are earmarked funds




                                                       -7-
                                OPEN WORLD LEADERSHIP CENTER
                               Combined Statement of Budgetary Resources
                                For the Years Ended September 30, 2010 and 2009
                                                                                    FY 2010           FY 2009


Budgetary Resources (see Note 11)
  Unobligated Balance, brought forward , October 1                           $       446,273 $      1,021,753
  Recoveries of prior year obligations                                             1,153,534        1,647,521
  Budget Authority
     Appropriation (see Note 11)                                                  25,664,289       29,032,157
      Spending authority from offsetting collections
      Earned
       Collected                                                                       19,832           42,354
       Change in receivables from Federal Sources                                         166          (1,615)
      Advance Received                                                             ( 406,729)         286,763
      Subtotal budget authority                                                   25,277,558       29,359,659
   Permanently not available                                                                0                0
   Total Budgetary Resources                                                 $    26,877,365 $     32,028,933
Status of Budgetary Resources
   Obligations Incurred:
      Direct                                                                 $    26,119,565 $     31,582,660
   Unobligated balance-Exempt from Apportionment                                     757,800          446,273
Total Status of Budgetary Resources                                          $    26,877,365 $     32,028,933


Change in Obligated Balance:
  Obligated Balance, Net
     Unpaid obligations, brought forward, October 1                    $           8,265,678 $      6,823,880
     Less: Uncollected customer payments from Federal sources, brought
            Forward October 1                                                               0           (1,615)
     Total unpaid obligated balance, net                                            8,265,678        6,822,265
     Obligations Incurred                                                          26,119,565       31,582,660
     Less: Gross outlays                                                         (25,926,028)     (28,493,341)
     Less: Recoveries of prior-year unpaid obligations                            (1,153,534)      (1,647,521)
     Change in uncollected customer payments from Federal sources                       (166)             1,615
  Obligated Balance, Net, End of Period
      Unpaid obligations                                                           7,305,681        8,265,678
      Less: Uncollected customer payments from Federal sources                         (166)                0
      Total, unpaid obligated balance, net end of period                           7,305,515        8,265,678
Net Outlays
     Gross Outlays                                                                 25,926,027       28,493,341
     Less: Offsetting Collections                                                     386,897        (329,117)
     Less: Distributed Offsetting Receipts                                       (12,000,000)     (13,900,000)
  Net Outlays                                                                $     14,312,924 $     14,264,224
The accompanying notes are an integral part of these financial statements.


                                                       -8-
                                Open World Leadership Center
                                 Notes to the Financial Statements
                        For the Years Ended September 30, 2010 and 2009

Note 1.          Summary of Significant Accounting Policies

A.     Reporting Entity

The Center, a legislative branch agency of the federal government was established by Public Law
106-554 to bring political and civic leaders to the United States to meet their American counterparts
and experience American style democracy and free enterprise in action. The Center relies primarily
on appropriated funds to support its programs and operations. Budget requests are subject to review
by the House Appropriations Committee and the Senate Appropriations Sub-committees on
Legislative Branch. The Center also receives funds from other federal agencies and gifts from the
public to carry out its operations.

The Center’s programs and operations are governed by a board of trustees. Board members consist
of members of congress (appointed by the Congressional leadership) and private citizens (appointed
by the Librarian of Congress). The Librarian of Congress is currently the Chairman of the Board.

B.        Basis of Presentation

The accompanying financial statements report the financial position, net costs, changes in net
position, and budgetary resources of the Center for fiscal years 2010 and 2009. These statements
and schedules include amounts of all funds designated by law and managed for the purpose of the
Center. The statements were prepared from the Library’s financial management system in
accordance with the form and content for entity financial statements specified by the Library’s
financial management regulations and directives and the accounting policies summarized in this
note.

As a Legislative Branch agency, the Center is not required to follow the executive agency
accounting principles established by the Comptroller General under 31 U.S.C. 3511 or standards
developed by the Federal Accounting Standards Advisory Board (FASAB). However, the Center
maintains its fund balances with the Treasury and submits information required to incorporate its
financial and budget data into the overall federal government structure. For purposes of financial
management and reporting, the Center follows Library regulation (LCR 1510) which adopts the
federal standards for financial reporting and internal controls in a manner consistent with a
legislative agency.

C.        Basis of Accounting

Transactions are recorded on the accrual basis and are within budgetary limitations established to
facilitate compliance with legal constraints and controls over use of federal funds. Under the accrual
method, revenues are recognized when earned and expenses are recognized when incurred, without
regard to receipt or payment of cash.



                                                -9-
The Center’s financial statements conform to accounting principles generally accepted in the United
States of America as promulgated by the FASAB. The American Institute of Certified Public
Accountants recognizes FASAB Standards as generally accepted accounting principles for federal
reporting entities.

The statements were also prepared based on guidance published in the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements. The Center is not required
to adopt this circular, and accordingly has elected to use the disclosures management deems
necessary for the fair presentation of financial statement information.

D.        Use of Estimates in Preparing Financial Statements

The preparation of financial statements, in conformity with Federal accounting standards, requires
management to make estimates and assumptions. These estimates affect the reported amounts of
assets and liabilities and the disclosures of contingent assets and liabilities at the date of the financial
statements, and the amounts of revenues and expenses during the reporting period. Actual results
may differ from these estimates.


Note 2.         Fund Balance with Treasury


                                                                    2010                     2009
     OWLC Funds Originally from Appropriations                   $ 444,313                 $207,244
     Gift Funds                                                     721,002                  827,707
     Total                                                       $1,165,315               $1,034,951


     Status of Fund Balance with Treasury:                          2010                      2009
     Unobligated Balances – Available                                  $0                         $0
     Obligated Balances - Unavailable                             1,165,315                1,034,951
     Total                                                        $1,165,315              $1,034,951



Note 3.         Investments, net

The Center’s funds that are not needed currently to finance current activities are invested in interest-
bearing obligations of the United States. The Center has directed the Library to invest funds derived
from contributions in Treasury securities. Due to the short-term nature of the investments, the cost
of investments in conjunction with accrued interest approximates their fair market values.
Investments outstanding were $6,938,957 and $7,727,380 for fiscal years 2010 and 2009. Average
annual investment rates were 2.5% and 3.344% in fiscal years 2010 and 2009.

                                                  - 10 -
                                                                 2010                  2009
      Face Value                                                $6,898,000          $7,677,000
      Interest Receivable                                           40,957              50,380
      Investments, Net                                          $6,938,957          $7,727,380



Note 4.        Pledges Receivable

The Argyros Foundation pledged $500,000 to the Center, of that amount, $436,667 was received,
and $63,333 is due next fiscal year; discounted amount is $63,162.


Note 5.        Prepayments

The Center awards grants to approximately 20 organizations with exchange-program expertise that
are competitively selected for the purpose of hosting the foreign delegates. In fiscal years 2010 and
2009, $142,700 and $471,549 had been paid to but not yet used by these organizations to carry out
their services.


Note 6.        Intragovernmental Activities

The financial activities of the Center interact with and depend on the services of the Department of
State and the Library for administrative support.


Note 7.        Liabilities Covered and Not Covered By Budgetary Resources

                                                                 2010               2009
    Liabilities Covered By Budgetary Resources                  $2,106,629          $1,703,398
    Liabilities Not Covered By Budgetary Resources:
       Intragovernmental                                                 0                   0
         Other                                                      62,279              64,978
    Total                                                       $2,168,908          $1,768,376


Liabilities covered by budgetary resources include accounts payable, advances from others,
accrued funded payroll and benefits, advances from the public, and deferred credits.

Liabilities not covered by budgetary resources include accrued unfunded annual leave and
benefits.


                                               - 11 -
Note 8.       Imputed Financing Sources

An imputed financing source of $76,912 and $57,130 was recognized for partial funding of
employee benefit costs incurred on behalf of the Center by the Office of Personnel Management in
fiscal years 2010 and 2009, respectively.


Note 9.       Total Cost and Earned Revenue by Budget Functional Classification

                                                               2010                2009
    Total Cost by Function Classification:
    Education, Training, Employment and Social Services $14,928,614            $14,643,577


Note 10.      Total Cost by Program Activity

                                                            2010                   2009
    Intragovernmental Costs                            $ 721,049                $1,017,701
    Public Costs                                       14,207,565               13,625,876
    Total Program Costs                               $14,928,614              $14,643,577




                                             - 12 -
Note 11.            Budgetary Resources

The Center’s General Fund received appropriations of $12,000,000. The Appropriation amount
reflected in Budget Authority in this note and in the Statement of Budgetary Resources includes the
general fund appropriation as well as its transfer of $12,000,000 from the general fund to the trust
fund. This “combined” reporting, where elimination of internal transfers is not permitted, is a
standard presentation of the Statement of Budgetary Resources, as required by generally accepted
accounting principles for a legislative agency.

The following presentation is designed to assist the reader in understanding that the actual
appropriation for fiscal years 2010 and 2009 were $12,000,000 and $13,900,000, respectively.


                                                  FY 2010                                           FY 2009
                                Appropriated    Non-            Combined          Appropriated    Non-            Combined
                                  Capital    Appropriated                           Capital    Appropriated
                                               Capital                                           Capital
Budgetary Resources:
Unobligated Balance, Brought     $           0 $     446,273 $         446,273     $           0 $    1,021,753 $ 1,021,753
Forward, October 1
Recoveries of Prior-Year                     0      1,153,534         1,153,534                0      1,647,521     1,647,521
Obligations
Budget Authority:
Appropriation                        12,000,000    13,664,289        25,664,289        13,900,000    15,132,157    29,032,157
Spending Authority from
Offsetting Collections:
Earned:
Collected                                    0        19,832            19,832                 0         42,354       42,354
Change in Receivables from                   0           166               166                 0        (1,615)       (1,615)
Federal Sources
Change in Unfilled Customer
Orders:
 Advances Received                           0      (406,729)         (406,729)                0       286,763       286,763
Without Advances from
Federal Sources
Expenditure Transfers from
Trust Funds
Subtotal Budget Authority            12,000,000    13,277,558        25,277,558        13,900,000    15,459,659    29,359,659
Nonexpenditure Transfers, Net
Temporarily Not Available
Pursuant to Public Law
Permanently Not Available                   0            0            0                       0            0            0
Total Budgetary Resources        $ 12,000,000 $ 14,877,365 $ 26,877,365            $ 13,900,000 $ 18,128,933 $ 32,028,933




                                                            - 13 -
Status of Budgetary
Resources:
Obligations Incurred:
Direct                           $ 12,000,000 $ 14,119,565 $ 26,119,565          $ 13,900,000 $ 17,682,660 $ 31,582,660
Reimbursable
Total Obligations Incurred           12,000,000     14,119,565      26,119,565       13,900,000     17,682,660     31,582,660
Unobligated Balance (Exempt                   0        757,800         757,800                0        446,273        446,273
from Apportionment)
Unobligated Balance – Not
Available
Total Status of Budgetary        $ 12,000,000 $ 14,877,365 $ 26,877,365          $ 13,900,000 $ 18,128,933 $ 32,028,933
Resources
Change in Obligated
Balance:
Unpaid Obligated Balance,
Net, Brought Forward,
October 1:
Unpaid Obligations, Brought      $           0 $     8,265,678 $     8,265,678   $           0 $     6,823,880 $ 6,823,880
Forward
Less: Uncollected Customer                   0               0              0                0          (1,615)        (1,615)
Payments, Brought Forward
Total Unpaid Obligation                      0       8,265,678       8,265,678               0       6,822,265      6,822,265
Balance, Net
Obligations Incurred, net          12,000,000        14,119,565     26,119,565     13,900,000        17,682,660     31,582,660
Less: Gross Outlays              (12,000,000)      (13,926,028)   (25,926,028)   (13,900,000)      (14,593,341)   (28,493,341)
Less: Recoveries of Prior-Year              0       (1,153,534)    (1,153,534)              0       (1,647,521)    (1,647,521)
Unpaid Obligations
Change in Uncollected                        0           (166)           (166)               0           1,615          1,615
Customer Payments from
Federal Sources
Total Unpaid Obligated
Balance, Net:
Unpaid Obligations                           0       7,305,681       7,305,681               0       8,265,678      8,265,678
Less: Uncollected Customer                   0           (166)           (166)               0               0              0
Payments from Federal
Sources
Total Unpaid Obligated           $           0 $     7,305,515 $     7,305,515   $           0 $     8,265,678 $ 8,265,678
Balance, Net, End of Period

Net Outlays:
Gross Outlays                    $ 12,000,000 $ 13,926,027 $ 25,926,027          $ 13,900,000 $ 14,593,341 $ 28,493,341
Less: Offsetting Collections                0       386,897      386,897                    0      (329,117)    (329,117)
Less: Distributed Offsetting                0             0            0                    0              0            0
Intrabudgetary Receipts                        (12,000,000) (12,000,000)                        (13,900,000) (13,900,000)
Total Net Outlays                $ 12,000,000 $ 2,312,924 $ 14,312,924           $ 13,900,000 $      364,224 $ 14,264,224




                                                           - 14 -
Note 12.          Reconciliation of Net Cost of Operations to Budget



Resources Used to Finance Activities
                                                                                      FY 2010          FY 2009
Budgetary Resources Obligated:
  Obligations Incurred                                                            $     26,119,565 $    31,582,660
  Less: Spending Authority from Offsetting Collections and Recoveries                    (766,803)      (1,975,023)
  Distributing Offsetting Receipts                                                    (12,000,000)     (13,900,000)
  Net Obligations                                                                       13,352,762       15,707,637
Other Resources
   Imputed Financing from Costs Absorbed by Others                                         76,912           57,130
   Total Resources Used to Finance Activities                                          13,429,674       15,764,767
Resources Used to Finance Items not Part of the Net Cost of Operations
   Change in Budgetary Resources Obligated for Goods, Services and Benefits
     Ordered but not yet Provided                                                       1,501,186       (1,092,041)
   Resources that Fund Expenses in Recognized in Prior Periods                             (2,699)         (29,602)
   Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of
     Operations                                                                        12,000,000       13,900,000
   Resources that Finance the Acquisition of Assets                                             0                0
   Other Resources or Adjustments to Net Obligated Resources
     that do not affect Net Cost of Operations                                        (12,000,000)     (13,900,000)
   Total Resources Used to Finance Items not Part of the Net Cost of Operations          1,498,487      (1,121,643)
Total Resources Used to Finance the Net Cost of Operations                              14,928,161       14,643,124
Components of Net Cost of Operations that will not Require or Generate
Resources
In Future Periods
Components Requiring or Generating Resources in Future periods:
 Increase in Annual Leave Liability                                                             0                0

Total Components Requiring or Generating Resources in Future Periods                            0                0
Components not Requiring or Generating Resources:

 Depreciation and Amortization                                                                453              453
Total Components of the Net Cost of Operations that will Not Require
Or Generate Resources in the Current Period                                                   453              453
Net Costs of Operations                                                           $    14,928,614 $     14,643,577




                                                   - 15 -
